<html>
<title> - FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: FAA ADMINISTRATOR and FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: STAKEHOLDERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    FEDERAL AVIATION ADMINISTRATION
                   REAUTHORIZATION: FAA ADMINISTRATOR
                                  and
                    FEDERAL AVIATION ADMINISTRATION
                     REAUTHORIZATION: STAKEHOLDERS

=======================================================================

                                (112-2)

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FEBRUARY 8 AND 9, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


               Available online at: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
65-447                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOBB GIBBS, Ohio                     LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  


                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman

HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
TOM REED, New York                   EDDIE BERNICE JOHNSON, Texas
FRANK C. GUINTA, New Hampshire       LEONARD L. BOSWELL, Iowa
RANDY HULTGREN, Illinois             TIM HOLDEN, Pennsylvania
CHIP CRAVAACK, Minnesota, Vice       MICHAEL E. CAPUANO, Massachusetts
Chair                                MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              STEVE COHEN, Tennessee
BILLY LONG, Missouri                 ELEANOR HOLMES NORTON, District of 
PATRICK MEEHAN, Pennsylvania         Columbia
STEPHEN LEE FINCHER, Tennessee       NICK J. RAHALL II, West Virginia
STEVE SOUTHERLAND II, Florida          (Ex Officio)
JAMES LANKFORD, Oklahoma
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                              ----------                              

                       TUESDAY, FEBRUARY 8, 2011

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Babbitt, Hon. Randolph, Administrator, Federal Aviation 
  Administration.................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    36
Johnson, Hon. Eddie Bernice, of Texas............................    41
Petri, Hon. Thomas E., of Wisconsin..............................    44

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Babbitt, Hon. Randolph...........................................    48

                       SUBMISSIONS FOR THE RECORD

Association for Unmanned Vehicle Systems International (AUVSI), 
  written statement..............................................    57

                              ----------                              

                      WEDNESDAY, FEBRUARY 9, 2011
                               TESTIMONY

Blakey, Marion C., President and CEO, Aerospace Industries 
  Association....................................................    69
Bunce, Peter J., President and CEO, General Aviation 
  Manufacturers Association......................................    69
Calio, Nicholas E., President and Chief Executive Officer, Air 
  Transport Association of America, Inc..........................    69
Conley, David S., President, FAA Managers Association, Inc.......    69
Fuller, Craig, President and CEO, Aircraft Owners and Pilots 
  Association....................................................    69
Johnson, A.A.E., Kelly L., First Vice Chair, American Association 
  of Airport Executives..........................................    69
Rinaldi, Paul M., President, National Air Traffic Controllers 
  Association....................................................    69

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    95
Johnson, Hon. Eddie Bernice, of Texas............................    96
Petri, Hon. Thomas E., of Wisconsin..............................    99

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Air Transport Association of America, Inc........................   102
Blakey, Marion C.................................................   112
Bunce, Peter J...................................................   128
Conley, David S..................................................   134
Fuller, Craig....................................................   144
Johnson, A.A.E., Kelly L.........................................   152
Rinaldi, Paul M..................................................   171

                       SUBMISSIONS FOR THE RECORD

Cohen, Hon. Steve, a Representative in Congress from the State of 
  Tennessee, questions submitted for the record, no responses 
  were received..................................................   181
Aircraft Mechanics Fraternal Association, written statement......   182
Airport Minority Advisory Council (AMAC), Don O'Bannon, Chair, 
  written statement..............................................   184
Airports Council International-North America, Gregory Principato, 
  President, written statement...................................   193
Americans for Tax Reform, Grover Norquist, President; Center for 
  Fiscal Accountability, Mattie Corrao, Executive Director, joint 
  letter to Hon. Mica and Committee Members urging the rejection 
  of any tax increase on travelers...............................   214
Helicopter Association International, Matthew Zuccaro, President, 
  written statement..............................................   215
National Association of Flight Instructors, Jason Blair, 
  Executive Director, written statement..........................   221
National Business Aviation Association, Ed Bolen, President and 
  CEO, written statement.........................................   225
Professional Aviation Safety Specialists, AFL-CIO, written 
  statement......................................................   232

[GRAPHIC] [TIFF OMITTED] T5447.001

[GRAPHIC] [TIFF OMITTED] T5447.002

[GRAPHIC] [TIFF OMITTED] T5447.003

[GRAPHIC] [TIFF OMITTED] T5447.004

[GRAPHIC] [TIFF OMITTED] T5447.005

[GRAPHIC] [TIFF OMITTED] T5447.006

[GRAPHIC] [TIFF OMITTED] T5447.007

[GRAPHIC] [TIFF OMITTED] T5447.008

[GRAPHIC] [TIFF OMITTED] T5447.009

[GRAPHIC] [TIFF OMITTED] T5447.010

[GRAPHIC] [TIFF OMITTED] T5447.011



                    FEDERAL AVIATION ADMINISTRATION
                   REAUTHORIZATION: FAA ADMINISTRATOR

                              ----------                              


                       Tuesday, February 8, 2011

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2167, Rayburn House Office Building, Hon. Thomas Petri 
[Chairman of the Subcommittee] presiding.
    Mr. Petri. I would like to welcome all members of the 
Subcommittee to our first hearing of the 112th Congress. We are 
meeting to address the issue of the reauthorization of the 
Federal Aviation Administration, a piece of legislation that is 
moving rapidly in the Senate, as we all know, as well. It is a 
critical task, since the last reauthorization was in 2003, when 
our full committee Chairman, John Mica, was Chairman of this 
Subcommittee. Since that time, although the House has passed 
reauthorization bills in the previous two Congresses, we have 
been unable to reach agreement with the Senate and send a final 
bill to the White House. Instead, 17 extensions have been 
passed in order to keep the FAA operating.
    I am confident that this year we can enact a 
reauthorization bill that will enable the hardworking people at 
the FAA to continue the important job of overseeing the safe 
and efficient use of our Nation's airspace, improve our 
aviation infrastructure, and move NextGen forward to modernize 
our air traffic control system.
    A reauthorization bill is a step toward ensuring that the 
United States continues to have the safest and most efficient 
aviation system on the globe, and to ensure the competitiveness 
of the U.S. civil aviation industry and to enhance it.
    It goes without saying that the aviation industry is vital 
to our economy, contributing $1.2 trillion annually to the 
Nation's economy, and, directly or indirectly, generating over 
10 million jobs. It is important that this industry's stability 
and its growth continue.
    In addition, it is critical that we ensure that NextGen is 
delivered on time and on budget. NextGen is vital to the U.S. 
aviation industry's increasing efficiency and lowering costs.
    I am pleased that we have today with us the Administrator 
of the Federal Aviation Administration, who has I think earned 
the respect of people in the industry as he has taken his 
position. Thank you for joining us today to offer your insights 
on the FAA reauthorization. Also, as part of this hearing, we 
would welcome your thoughts and suggestions on the legislation 
that is before us. And we would welcome the thoughts and 
suggestions of all the members of the Subcommittee as well. We 
are looking forward to any ideas that would help us to improve 
the legislation as it moves forward.
    Before I recognize Ranking Member Costello, I would like to 
say to Administrator Babbitt that I look forward to continue 
working with you over the coming months. I am confident we can 
work together to complete a reauthorization bill that cuts 
waste, streamlines and expedites Next Generation, creates jobs, 
keeps U.S. civil aviation competitive in the global 
marketplace.
    With that, I recognize Mr. Costello, the senior Democrat on 
this committee, my colleague last session when he was Chairman 
of the Subcommittee.
    Mr. Costello. Mr. Chairman, I thank you and congratulate 
you on your selection as Chairman of the Subcommittee. I have 
been in this chair before and I have been in that chair, and I 
would much rather be in your chair than my chair. But let me 
say that I look forward to working with you. And we have always 
had a very good relationship as Chairman and when you were 
Ranking Member, and I expect that we will continue to have that 
relationship.
    I also thank you for calling the hearing today on the 
Federal Aviation Administration reauthorization; the FAA 
Administrator, who is here with us, and we will hear from him.
    Mr. Chairman, in the 110th and the 111th Congress the 
Aviation Subcommittee held 52 hearings, we spearheaded 39 bills 
and resolutions through the House, 25 of which were enacted. 
This Subcommittee made a valuable contribution to our Nation's 
economic recovery with enactment of the American Recovery and 
Reinvestment Act of 2009, which included $1.3 for aviation 
infrastructure.
    I commend Administrator Babbitt and his agency for getting 
the money out the door quickly, investing in valuable job-
producing infrastructure projects. Work has already been 
completed on 694 projects, and is underway on 77 more, 
representing 100 percent of the total aviation Recovery Act 
funds.
    Mr. Chairman, in response to the February 2009 Colgan 
flight 3407 crash, we worked together to enact sweeping airline 
safety and pilot training reforms, the strongest piece of 
aviation safety legislation in decades. We have some members of 
the Colgan families today here with us, and I want to thank 
them for their steadfast support in getting our new safety law 
enacted.
    Last month, I asked the Department of Transportation's 
Inspector General's Office to undertake a comprehensive review 
of the FAA's progress implementing the provisions of our new 
safety law, as well as the industry's responses to the FAA's 
call to action on voluntary safety programs. This Subcommittee 
must continue to provide vigorous oversight on safety issues. 
Last year, we also worked with the other body and got very 
close to delivering a strong, balanced, bipartisan FAA 
reauthorization bill. Based on the work we did last Congress, I 
believe we can complete a bipartisan bill very quickly. And I 
intend to work with you to produce a bill as soon as possible. 
However, we must ensure that the bill we produce continues 
moving the FAA forward, the aviation community and the Nation 
forward, and does not set us back. Commercial and general 
aviation together contribute more than $1.3 trillion in output 
to the Nation's economy. Historically, members of this 
Subcommittee have fought to increase and guarantee 
infrastructure funding in each successive reauthorization bill. 
This Subcommittee has recognized that investing in our 
infrastructure will improve the economy, create jobs, and 
provide for the safe and efficient flow of commerce.
    Some have suggested that for fiscal reasons we should go 
backwards, downsize the FAA, and even authorize lower capital 
funding levels for the FAA than what Congress provided in the 
last FAA reauthorization bill over 7 years ago. I am convinced 
that doing so will present major concerns for aviation safety. 
I agree that we need to reduce the Federal spending, but we 
cannot jeopardize the safety of the flying public in the 
process. The FAA indicates that if Congress reduces the FAA's 
funding level to 2008, key NextGen programs will be delayed or 
canceled, that funding cuts will stall the agency's facility 
consolidation efforts, efforts that otherwise would save 
billions of dollars and reduce the deficit in the long term. 
Funding cuts may also force the FAA Aviation Safety Office to 
furlough hundreds of safety personnel.
    With that, Mr. Chairman, I look forward to hearing the 
testimony of Administrator Babbitt, and look forward to working 
with you.
    Mr. Petri. Thank you. I do as well.
    I ask unanimous consent that the record be kept open for 2 
weeks for additional statements. Without objection, so ordered. 
At this time, I recognize the Chairman of the full committee, 
John Mica.
    Mr. Mica. Thank you, Mr. Petri and Mr. Costello. When you 
end up with responsibility over an important committee like 
ours, you try to set some priorities. And when asked what my 
top priority would be, there is no question that we have to do 
an FAA reauthorization. Not only is it important to ensure 
something we take for granted in this country, and that is safe 
flying and skies and the ability to get around like no one on 
the Earth has ever known. We take some of that for granted, but 
it does require our work as trustees of that responsibility to 
set the parameters and the policy. No question we have got to 
move forward. And I set this as the top priority.
    I cannot tell you how pleased I am that Senator Reid and 
our colleagues in the Senate have already begun their work. My 
goal is to not have an 18th extension, and to have this bill on 
the President's desk before the current 17th extension expires. 
At a time when the country's hurting economically, I am told--
and I have heard different accounts--that the aviation 
industry, when we were hit at 9/11, accounts for somewhere 
between 9 and 11 percent of our entire GDP. That is how big 
this industry is. And to not have in place the policy, the 
projects, the vision for the future that we craft in 
legislation, and are again supposed to be responsible trustees 
for the people, that is not right. So we need to correct that. 
We are going to get it done. We are going to work in rapid 
order.
    Today we hear from the administration, and welcome Mr. 
Babbitt and his recommendations. And until the ink is dry on 
this, everyone's suggestions and input is welcome. Tomorrow we 
will hear from some of the stakeholders. And I ask you this 
week to speak now or forever hold your peace. And I mean we do 
want to hear from you, any ideas that you have. Tomorrow, when 
we finish hearing from the stakeholders, I have invited all of 
the--I guess we call it the big four, whatever it is, guys and 
gals, and any other Members that would like to participate, 
particularly the staffs on both sides of the aisle, to sit 
down, and we will go through the pending issues tomorrow 
afternoon, as we are going to move with lightning speed and try 
to bring forth as soon as possible a very effective, I hope, 
piece of legislation, one that will be lean--we are in some 
lean times--but ensure, as I said, the safety of the flying 
public.
    I also want to welcome today, and thank for their great 
work, we had problems beyond what anyone could imagine if you 
lost a loved one in an aviation tragedy, but the Colgan 
families have been just tremendous. We wouldn't have in place 
legislation to improve the commuter airlines' safety and 
effectiveness without your help. But now we have got this 
important responsibility. And we want to get it done as soon as 
possible, without further delay.
    Let me just say a couple of things. I saw the Senate is 
working on a 2-year bill. I want a 4-year bill. I had no idea 
my bill would turn into what, a 7- or 8-year bill, Jerry, the 
one we crafted in 2003. But we need it longer, not shorter. Our 
challenge will be to do more with less. And I am still 
soliciting, right up until we get the final ink dry on whatever 
we do, NextGen suggestions. NextGen is our vision for the 
future. So I invite and welcome anyone's recommendation. I 
particularly want to hear from the Administrator on that.
    So this again does set forth our policy, our projects, our 
funding, and our safety program for one of the most important 
activities in our economy. Again, it will be a full, open 
process, but it is also going to move forward with lightning 
speed.
    With that, I thank you for yielding to me, and yield back 
the balance of my time.
    Mr. Petri. Thank you.
    I recognize at this time for an opening statement our 
colleague from Texas, Eddie Bernice Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
Let me thank the two leaders on this committee for the kind of 
professional work that we have done over the years together, 
notwithstanding what side is in the majority. And I want to 
especially point out that Mr. Costello made many efforts to 
move this bill. I hope, like the full Chairman, we don't have 
to go to the 18th extension.
    Safety continues to be my number one concern. And I am 
hoping that we will produce a bill that provides a meaningful 
step in modernizing our air traffic control system, reducing 
congestion in our skies, and provide a needed boost to our 
Nation's airports. I look forward to working with my fellow 
committee members on both sides of the aisle, and hope we will 
be moving as quickly as the full Chairman wants us to move on 
this bill. Thank you.
    Mr. Petri. Thank you.
    At this time, I recognize the Vice Chairman of the 
Subcommittee, our colleague from the Iron Range, northern 
Minnesota, Representative Cravaack.
    Mr. Cravaack. Thank you, Chairman Petri, and Ranking Member 
Costello, for holding this important hearing today. 
Administrator Babbitt, welcome, Captain Babbitt, welcome, sir. 
I look forward to hearing your testimony today, and discussing 
ways to improve the FAA and to further implement NextGen.
    As you know, the last FAA reauthorization bill was in 2003. 
And I think everyone in the room is in agreement that we need 
to pass an FAA reauthorization bill this year. However, I think 
there are several concerns that need be addressed before 
considering this legislation. Namely, I think it is incumbent 
upon the FAA to demonstrate that they can be trusted to 
properly administer taxpayer dollars. I specifically raise the 
issue in light of the FAA's contracts awarded to Raytheon and 
ITT. I look forward to hearing what steps the FAA has taken to 
improve the oversight and stewardship of the American taxpayer 
dollars.
    Additionally, I am very concerned about the implementation 
of NextGen. It appears there are a number of factors that are 
stalling the implementation of critical NextGen programs. I 
hope you will address your agency's detailed plan for the 
implementation of NextGen. And I am particularly interested to 
hear about the NextGen implementation milestones that you 
intend to complete by the end of the year.
    Thank you again, Administrator Babbitt, and I look forward 
to working with you during this session. I yield back, sir.
    Mr. Petri. At this time, I recognize for an opening 
statement our colleague from Missouri, Representative Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. And congratulations 
or your new role with the committee. To Ranking Member 
Costello, I really look forward to working with you in this 
next Congress and on this reauthorization of the FAA.
    Passage of a multi year reauthorization of the FAA is long, 
long overdue so that we can make critical job-creating, 
business-expanding, and safety-enhancing investments in our 
aviation system to ensure it can properly accommodate the 
anticipated growth in travelers in the coming years.
    During both the last two Congresses, the 111th and the 
110th, the House has taken the lead to pass legislation to 
reauthorize the FAA that would have made these critical 
investments in our aviation system, from airport infrastructure 
to making critical investments in furthering NextGen. 
Unfortunately, the final conference report was not agreed to.
    As we take up this debate anew, it is critical we recognize 
the level of investment needed to ensure that we can make 
critical investments in our aviation infrastructure. Funding 
for the Airport Improvement Program has not increased in 5 
years. The passenger facility charges have not increased in 
over 10 years. During this time, construction costs have 
greatly increased, putting limitations on how AIP grants and 
PFCs can go to help airports meet their needs. Without greater 
investments, airports like Lambert-St. Louis International 
Airport in my home State cannot make the investments that are 
critical for their rebirth.
    The last extension Congress passed made improvements to the 
safety of the U.S. airline operations that bring one level of 
safety to the traveling public on major and regional air 
carriers. Critical to ensuring this one level of safety is 
sufficient funding to implement these safety measures.
    I want to thank Administrator Babbitt for joining us here 
today. I look forward to hearing your testimony. I also want to 
acknowledge and recognize the Colgan families that are here 
today for your work on safety issues. Having lost a father and 
a brother in an aviation accident, it is very important that 
you are here and part of this debate. And we look forward to 
working with you. Thank you.
    Mr. Petri. Thank you.
    Now I recognize for an opening statement the gentleman from 
North Carolina, Howard Coble.
    Mr. Coble. Mr. Chairman, I appreciate you scheduling this 
hearing on a very important subject matter, but I have no 
formal opening statement, and yield back.
    Mr. Petri. Thank you. Representative Lankford from Oklahoma 
for an opening statement.
    Mr. Lankford. Thank you. Honored to be here. And thank you 
so much for both you coming, and for also your availability, as 
you made yourself available and your staff available for any 
questions that we have had leading up into this conversation. I 
am sure in the days to come we will have multiple more.
    I will have a great interest in how we are handling 
NextGen. That has been a project that--I am 42 years old, and 
all of my life that I know of as an adult there has been a 
discussion about where we are going with NextGen and what is 
going to happen with air traffic control. But also, an 
additional thing is I am looking forward to hearing about 
discretionary spending from FAA, and how the decisions are made 
on where we spend. And then also how we handle the realignment 
of FAA facilities.
    I have great interest on how FAA is making the decisions, 
the formula you have, and setting aside which area needs to be 
realigned and the timing of that realignment. So I look forward 
to those conversations, and thank you again for coming to be 
here.
    Mr. Petri. Thank you.
    Are there any other Members who wish to make an opening 
statement? Representative Schmidt from Ohio.
    Mrs. Schmidt. Thank you, Mr. Chairman. I just want to 
acknowledge all the families that are here in memory of their 
loved ones who have met tragedy in flight. You know, when 
Continental Flight 3407 met its tragedy in Buffalo, New York, a 
few years ago, my small community of Loveland, Ohio, was 
touched twice. And I know the Perry family is here. And I just 
want to thank all of those involved for advocating safety 
first, and making sure that all of us are on our toes. Thank 
you very much for all that you do. And my prayers go out to you 
each and every day. Thank you.
    Mr. Petri. Thank you. And at this time, Representative 
Hirono.
    Mr. Hirono. Thank you, Mr. Chairman. Good afternoon, 
Administrator Babbitt. I too am looking forward to the 
discussions that we will have regarding the FAA 
reauthorization. And I think that all of the provisions in that 
reauthorization really affect every single community.
    And I would like to bring up one issue that is important to 
many communities in remote areas. There is a community in my 
district called Kalaupapa, which is where Father Damien, now 
St. Damien, administered to the Hansen's disease patients. This 
is an area that is impacted by our EAS process. That essential 
air service is basically the only way that the people there can 
get to medical resources, as well as tourists who now are 
coming more frequently because of the connection of that area 
to St. Damien.
    I know that you are probably in the process of reviewing 
EAS procedures. There may be people here who would like to 
totally eliminate the EAS because of the funding situation we 
find ourselves. But the real-life impact on remote areas and 
communities all across our country, and certainly to Kalaupapa, 
would be very extreme if we do not continue to support EAS and 
to make sure that that program works as it was intended. And 
that is to make sure that the people of our country are served, 
regardless of where they live.
    So I look forward to working with you, Administrator 
Babbitt, to make sure that the EAS process is fair, that it is 
working in the way it is intended. And again, I look forward to 
hearing from you. Aloha. I yield back.
    Mr. Petri. Thank you.
    Representative Hultgren from Illinois.
    Mr. Hultgren. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be here. Administrator, looking 
forward to working with you. I especially want to thank the 
families that are here from the Colgan flight, the tragedy 
there. Thank you for your input. Thank you for your 
involvement. And I want to join with you to make sure that air 
travel is safe, and every day that we are working to continue 
to increase the safety. And I know that is commitment of all of 
us here, along with the FAA. So thank you for your input, and 
thank you for turning this into something positive for future 
generations as well.
    Also, it is very important for me, my district is just 
outside of Chicago, adjacent to O'Hare, and I have maybe the 
highest number of air traffic controllers that live in my 
district. So very interested in NextGen and how that will move 
forward. So, looking forward to this opportunity to be working 
together again for the good of all people here in America on 
making sure that air travel is as safe as it can possibly be.
    So thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Petri. Representative Farenthold from Texas.
    Mr. Farenthold. Thank you very much, Mr. Chairman. As 
someone who was touched personally with the death of my 
grandfather in an aviation accident, this is near and dear to 
my heart. I did want to say that I am looking forward to 
working on this committee, with safety being our number one 
concern, but also keeping an important eye on the economic 
growth that the aviation industry and transportation in general 
provides to this country.
    I will be particularly concerned with the FAA and all 
government agencies' stewardship of the taxpayers' money, and 
remain concerned at the length of time implementing new 
technologies like NextGen is taking, and how expensive that 
really is in the long run to both the industry and everyone in 
the American public in general.
    That is all I have got right now. I yield back the 
remainder of my time. Thank you.
    Mr. Petri. Thank you.
    And now Administrator Babbitt, we thank you for the work 
that went into your prepared statement, and I hope you will 
summarize it within 5 minutes or so, and answer questions.

  TESTIMONY OF HON. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Babbitt. Thank you very much, Chairman Petri, Ranking 
Member Costello, members of the entire Subcommittee. I really 
want to thank you for the opportunity to appear before you 
today to discuss the need for comprehensive reauthorization 
legislation for the Federal Aviation Administration's programs.
    And before I begin my statement, I would like to 
acknowledge that I see a number of new faces on the 
Subcommittee. I have been able to meet with some of you. I look 
forward to meeting with the balance of you over time. Since I 
am a frequent guest of the committee, I am sure that I will get 
to know all of you over time here as we get together and 
discuss important aviation issues.
    I think I heard you all summarize very well the fact that 
the FAA's mission is in fact to provide the safest, most 
efficient airspace system in the world. And we do it well. 
There wasn't a single passenger fatality in the commercial 
aviation system last year in the United States. That record is 
hard fought and we are very proud of it.
    But as we move forward to meet the demands ahead, I know 
that we cannot be complacent. And I also recognize keenly that 
this Congress will be extremely disciplined about how it 
invests taxpayer dollars. I believe that every government 
agency should make the business case for each investment in any 
of its programs. And for our part, investment in aviation is 
critical to this country's economic prosperity and its ability 
to compete successfully in the global marketplace. Strategic 
investment in aviation reaps benefits. And we are concerned 
that a failure to invest may well result in negative 
consequences.
    First and foremost, as you have noted, is always safety. 
And I know that some of the family members who lost loved ones 
in the Colgan accident 2 years ago are here today. I want to 
commend their continued vigilance to push Congress and to push 
the FAA to enact more stringent safety standards.
    The FAA has been hard at work writing the regulations 
required by the legislation passed by this Congress last year. 
And while aviation is clearly the safest mode of 
transportation, we will never top striving to reach the next 
level of safety.
    I again want to thank the family members here for their 
continued attention and focus on safety. Part of what will get 
us to the next level of safety is implementing, in fact, 
NextGen. NextGen programs and technologies will help us to be 
more proactive in how we analyze risk. And with advanced safety 
management techniques, we can then take the steps to prevent 
accidents.
    One such technology, ADS-B, is a satellite-based 
surveillance system. Deploying it in the Gulf of Mexico opened 
up almost a quarter of a million miles of new, positively 
controlled airspace, airspace that previously had no radar 
coverage.
    NextGen will also reduce the harmful effects that aviation 
has on the environment, while enabling carriers to operate more 
efficiently. For example, Performance-Based Navigation, a term 
you will hear, and we call it PBN, saves fuel and reduces 
emission. It literally pays for itself while it helps the 
environment. Today, we have issued more than 900 of these 
highly efficient arrival and departure routes using the new 
technology. And we are working on a plan to further improve and 
streamline the approval process. More precise arrival and 
departure routes are a sound investment. Continuing to develop 
and deploy NextGen is central to our ability to meet the 
demands of the future.
    Now, as we continue to focus on maintaining and enhancing 
aviation safety, we strive to do so in ways that facilitate 
U.S. business interests. Businesses rely on the FAA to certify 
their projects. And these projects range from the largest 
aircraft being built today to the smallest avionics box that 
goes in that airplane. Every improvement in aviation requires 
certification in order to ensure safety, and failure to invest 
in our ability to expedite certification could result in 
important safety initiatives taking longer to obtain 
certification, and therefore taking longer for products to get 
to market.
    The FAA must be able to support the demands of the industry 
when they develop that next good idea. These ideas translate 
into jobs. So investment in these areas is extremely important.
    Now, the FAA will never permit the safety of the existing 
system to ever be compromised. But if that priority consumes 
all of the agency's resources, then our ability to support 
industry innovation becomes affected.
    And finally, it is critical that we invest in the airports 
to meet what I see as an anticipated and increasing aviation 
demand. The Airport Improvement Program, AIP, has been 
disrupted somewhat as a result of the short-term extensions 
that we have experienced over the past few years. 
Administrative and project costs therefore get increased due to 
the need to have multiple grants to be issued over and over 
again for a single project. All of the investment that we make 
in routes, procedures, and certification will never eliminate 
the need for a place to land the airplane.
    We worked very hard to expand capacity at our Nation's 
airports over the past several years, and it is vital to our 
continued success that our investment dollars are optimized. 
And that can only happen through a long-term extension of the 
AIP program. We have worked for several years to get 
comprehensive legislation in place. Our 17th extension will 
expire at the end of March, and the need for stability and 
certainty has never been more important.
    I think we all understand that the challenges of 
implementing NextGen, improving the safety and efficiency of 
aviation come at a time, unfortunately, when tough investment 
choices will have to be made. I plan to continue to make the 
case that investment in aviation is important not only to 
airlines and passengers and pilots and all the other airline 
employees and people that serve in this industry, but to the 
strength of the overall economy and the businesses around the 
country.
    This committee in particular demands a lot of the FAA, and 
rightfully so. But meeting these demands will require an 
investment. And I think our case is compelling, and the return 
on our investment is one that no one can or should ignore.
    That concludes my opening statement and remarks, and I 
would be happy to answer your questions, Mr. Chairman.
    Mr. Petri. Thank you.
    I would just explore two areas briefly, and leave plenty of 
time for all the members to ask questions. I think I would be 
remiss if I didn't begin by asking a question about safety, 
because that is the number one priority, and your agency is to 
be commended for the remarkable record of the past year with no 
fatalities. There have been, though, as you know, a spike up in 
reports of near misses and a growing concern about that. We 
don't want to play ``gotcha.'' We do want, though, to have 
people know that we are concerned and we are watching.
    I wonder if you could discuss that whole subject and place 
it in context so we understand what we are talking about. Is it 
an improvement in reporting so it is apparent? Or just what is 
going on with the near-miss situation?
    Mr. Babbitt. Sure. That is a fair question. We certainly 
have made some very serious changes. One of the things that we 
have been very open about in our approach to aviation safety is 
asking every person, every party involved, to be very open 
about what happens. And we have a number of reporting programs 
so that we can gather more information, and we have done just 
that. We have invited people to be open and confess the fact 
that they have seen an error so that we understand what went 
wrong, and can therefore implement a change in the system, and 
implement a change in the training, implement a change in 
procedures. But we have to know what happened first.
    So, by implementing these programs, and some of them 
include abilities today to electronically track some of these 
operational incursions into what we would like to call safety 
zones or protected areas, we fully expected that we would get 
more reports. That was anticipated. And that is the good news.
    What is even more important, though, is what we have done 
with that information. Three years ago we had no loopback 
mechanism. So when we found out a safety incident had happened, 
a near miss had happened, we acknowledged it. And at best we 
might go to the facility and speak about a particular 
procedure. Today, we take all of those instances, and when we 
see a pattern we change the training. That is something we 
weren't doing years ago.
    So while this rise was certainly expected because we have 
better and more ways and more avenues of reporting, what we 
have taken from that is putting that information to good use 
with the goal being to make the system overall more safe.
    Mr. Petri. Well, we want to be kept in the loop, too, and 
fully informed, because we know that there is a lot of interest 
in this. And it is vital for everyone, both employees and the 
traveling public. And we may want to have further hearings to 
help explain different situations as they arise, and what steps 
are being taken to hopefully minimize the opportunities for 
them to happen again and the like.
    Mr. Babbitt. I would be remiss if I also didn't acknowledge 
the great partnership that we are enjoying today with the 
members of PASS, which is one of our professional unions, as 
well as NATCA. Both of those unions have stepped up to the 
plate with their leadership and engaged in voluntary safety 
reporting programs with us, which was a courageous move on 
their part, and a huge step in safety for all of us.
    Mr. Petri. Mr. Secretary, I thought I would just spend a 
minute or two on--our Chairman mentioned, and it is my sense, I 
don't know if it is yours, that over the last year or two there 
has been a growing sense of momentum toward the movement toward 
deploying NextGen. More companies in the industry are beginning 
to voluntarily step forward and equip themselves.
    I understand the industry is equipping a lot of the new 
planes being made with devices, or building them in such a way 
that they can easily be installed to minimize the costs of 
deploying the system. And you mentioned it in your opening 
testimony. We are looking forward to doing what we can in the 
reauthorization to give greater focus to the responsibility for 
deploying NextGen in our government and in the FAA, and also 
setting reasonable benchmarks for implementing it.
    And we will be hopefully having a series of hearings and 
roundtable discussions to make it clear what is happening and 
also anything that we can do to help NextGen. And it is my 
understanding that this is not just some sort of--it is a 
technical thing, but it is also moving the industry to a whole 
new level. Just as we saw with high-definition TV and all of 
the cellular and so on and so forth, this is moving from 
analog, radar, to digital, satellite, transponder, expanding 
the capacity and safety of the system. And it certainly will 
help the environment. And it may mean you won't have to spend 
as much in physical expansion of the air because what we 
already have will operate more efficiently.
    But I wonder if you could expand on your remarks in this 
regard. I understand Southwest is already using it and thinks 
it will pay itself back within a year or so for the investment 
they are making in equipment. UPS and FedEx, a number of other 
airlines, are using to the extent it is available, the new 
equipment that is being deployed. The savings for our country 
and for the environment are enormous. I just wonder if you 
could spend a bit more time talking about NextGen.
    Mr. Babbitt. Yes, sir, Mr. Chairman. Just listening to you, 
you should be sitting down here. You have made my case. Thank 
you. You have absolutely summed it up very well. We are making 
a great deal of positive and forward motion here. And the 
momentum is clearly there. And I think we need to appreciate 
where that momentum comes from. That momentum comes from 
reaching critical mass in a number of areas.
    Using your analogy of high-definition television, if we 
were to broadcast high-definition television all over the 
country but nobody had a television set that would receive it, 
we wouldn't really have achieved much. Conversely, if everyone 
had a television set that would receive it but we didn't 
broadcast it--well, that is the balance that we are seeking as 
we deploy more and more stations on the ground and equip more 
and more airports and airport areas with the technology that 
ADS-B can be used in, and have operators that can utilize those 
new procedures, that is where we see the gains. That is where 
we see the efficiency.
    And you were perfectly on track when you talked about the 
efficiency. The fact that we can more accurately see where 
aircraft are with the NextGen technology and them using NextGen 
procedures, we can use more efficient use of the airspace.
    You mentioned Southwest. And that is a wonderful partner 
that we have. And we have several that we are doing different 
things. We have made partnerships with a variety of carriers so 
that they can utilize the equipment under a supervised basis; 
we get the information, they get the benefit of the improved 
efficiencies.
    Southwest, by their own accord--I will let them announce 
the numbers they spent--but when fully deployed they expect to 
enjoy a gain of about $60 million a year, which means they will 
recapture their entire investment in a period of about 3 years. 
That is a remarkable investment. If you were a small business, 
you would ink up for something like that.
    We see that same situation, we have partnerships with 
Alaska Airlines and the Green Skies Initiative up in Seattle. 
We have ADS-B fully active in several airports around the 
country--Philadelphia, and Louisville, Kentucky. I mentioned 
the Gulf of Mexico. People say, well, that is the Gulf of 
Mexico. I wasn't aware until we deployed it out there that on a 
daily basis, every day, we transport 10,000 people on and off 
oil rigs in the Gulf of Mexico. Every day. And we did it 
without radar. We did it with literally 1950s navigation until 
we employed NextGen. Today they fly direct routes. They are in 
positive controlled airspace. They see each other and we see 
them. These are enormous savings, and progress in safety as 
well.
    Mr. Petri. Thank you very much. I now recognize Mr. 
Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Administrator Babbitt, I read your testimony. We have, as 
you know, this Subcommittee has been pressing the FAA and the 
industry to implement NextGen and to move forward. We have made 
great progress, and I have commended you publicly for the 
progress that we have made. You detailed progress that we have 
made with the industry. I know that as you just spoke about 
Southwest Airlines, JetBlue, others are coming on board and 
moving forward.
    However, we also know that as we are meeting here today in 
this hearing, that the Senate is debating an FAA 
reauthorization bill that would roll back funding levels to the 
2008 level. I think that members of the Subcommittee and the 
public need to understand what the consequences of rolling back 
to the 2008 funding level would be on NextGen, on the number of 
safety inspectors that in fact inspect repair stations today, 
and other issues that you will have to deal with, rolling back 
to the 2008 levels.
    So let me begin by asking you what specifically, as far as 
NextGen is concerned, what would be delayed and what would be 
canceled if in fact you end up with a budget at the 2008 level?
    Mr. Babbitt. Well, let me sort of take a top-down approach 
to that, if I could. Obviously, we would protect the safety of 
the current system. And we would have to then prioritize and 
take a hard look at what moneys were left, the gap between what 
we have requested in the President's budget that will come out 
next week and 2008. That gap would have to be realized 
somewhere.
    And so, as I said in my opening statement, we certainly are 
going to protect the safety of the system. But I think I could 
give you in general terms a few areas. One of great concern to 
me, we have a number of people involved in the certification of 
new projects and new facilities. We are seeing a new facility--
for example, Boeing wants to build a new plant, I believe, in 
South Carolina. We have Honda looking to build Honda jets in 
the central part of Florida. These all require certified 
inspectors. And if that staff was reduced, those types of 
projects would simply be approved more slowly. We would want 
them done, we would want them done right.
    In the terms of safety oversight, we have a number of 
pieces of regulations that we have either been inspired to 
bring forward either from our own research, direction from the 
NTSB, or direction from this Congress. And we are diligently 
doing those. But we want those regulations written properly, we 
want them to do what they were asked to do. And it is a very 
time-consuming process. We simply would not have the staff do 
that at the pace we do it today. I know what we can do today. I 
don't know what time in concrete terms that we could.
    NextGen would be in the third area. We know, and I am 
pleased to say, that we are on that pretty progressive schedule 
today. And I am happy to say we are meeting the benchmarks that 
we have reestablished. We did have some setbacks. But I am very 
proud of the way we have project oversight changes today. I am 
proud of the changes we have made to adopt acquisition 
strategies more in line with good business practices.
    But given less money, then we certainly would have to again 
take a look at the priorities, work with you, and decide what 
is it that we can do with less of. And it certainly would slow 
down the deployment of NextGen.
    The concern that I have in all of these is that it has a 
very direct and correlating impact on the economy. If we slow 
down NextGen--we are projected right now if we deploy NextGen 
on the schedule that we have, in the year 2018 we propose and 
we suggest--and people like JetBlue and Southwest Airlines and 
Alaska Airlines are proving our case--I have a sheet here that 
Southwest expected in their first month of operation was a 70 
percent usage of NextGen. They actually realized 91 percent. It 
is better than they even hoped. But with those type of 
projections and what we would save en route, we would save 1.5 
billion gallons of kerosene in the year 2018, and ongoing 
savings every year thereafter of a billion gallons of kerosene. 
That is a lot of carbon emissions, that is a lot of money. On 
average, if kerosene is $4 a barrel, we can all do the math, it 
is $4 billion a year. The system we are proposing to build, you 
would recapture that investment in 2 years. So I don't think we 
should think about being penny-wise and pound foolish. Yes, we 
could save the penny, but in the end it is going to cost more 
money over time to delay a lot of what we are proposing.
    Mr. Costello. Before my time is up, I have information here 
concerning one of the priorities of this Subcommittee, the 
agency. And in a bipartisan way, we have been pushing the 
agency to move forward with consolidation, because not only is 
it more efficient, but it will save a lot of money over time. 
Tell me what would happen to the consolidation program at the 
FAA with 2008 funding levels.
    Mr. Babbitt. Well, 2008 funding levels over what we have 
proposed would certainly slow that down. Again, you know, we 
would have to look at the moneys and decide what would be 
prioritized, and certainly work with this committee and others 
to make those determinations. But our consolidation adds to a 
great deal of efficiencies. And I would note for the record 
this is an agency that has sought efficiencies.
    I wasn't here for all of it, but I can tell you in the last 
5 years the Federal Aviation Administration has saved $560 
million in efficiencies that we have found. We are projecting 
more going forward. I can talk about, with more time, some of 
the studies we are looking at. But we simply wouldn't be able 
to enjoy some of those consolidations.
    Mr. Costello. I am told that the consolidation program 
would be delayed until 2014, and that there would be no 
construction or implementation. Is that correct?
    Mr. Babbitt. Well, if you looked at 2008 versus what we had 
proposed, I would have to have it in front of me, but that 
sounds reasonable.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I have more of a statement, I guess, rather than a 
question. I appreciate, Administrator Babbitt, you coming in. 
We have had numerous conversations about the FAA. And I would 
just suggest, and I know we put a lot of concentration today on 
the airlines and NextGen, which it obviously affects all of 
aviation; but let's not forget, too, about the flip side to 
this coin, and that is general aviation and the thousands upon 
thousands of GA pilots out there and aircraft out there that 
are also flying.
    When you talk about going to that next plateau and always 
achieving that next plateau in safety, I think that is a good 
thing. But let's also remember that there is a point also where 
it becomes just far too restrictive to even in some cases do 
what people love to do in the case of flying and owning their 
aircraft. You can do the same thing, you can say the same thing 
about driving vehicles around or maritime or whatever the case 
may be.
    But I would like to use a little common sense. We talked 
about that, and I am not going to get into the specifics of it 
here today. But you know over the years FAA has become very 
much a regulatory agency, and advocacy for aviation has been 
dropped from your mission statement. But I would hope that 
regardless if it is in your mission statement or not, and I 
know you care deeply about it, but I hope that we remember that 
and continue to talk about the greatness of aviation and how it 
is so safe, or why it is so safe, and just how important it is 
to this economy.
    That is really all I had to say. Just a suggestion, Mr. 
Chairman. I appreciate the opportunity.
    Mr. Petri. Thank you.
    Representative Johnson from Texas.
    Ms. Johnson of Texas. Thank you very much. And thank you 
for appearing before us today.
    Let me first compliment you on the efficiencies which you 
have shown. And one of my questions has just been answered by 
Mr. Costello on the cutbacks. The other one is the expansion of 
intermodal projects involving aviation as we craft this bill. 
Do you have any suggestions?
    Mr. Babbitt. Specific suggestions on?
    Ms. Johnson of Texas. The intermodal process involving much 
more connectivity between the areas of transportation.
    Mr. Babbitt. Oh, intermodal side. Well, I think one of the 
key ingredients, while we focus primarily on the airports 
themselves, and of course the safety when you leave the 
airport, I think more and more of the country in general is 
looking at the connectivity so that we can be efficient.
    One of the things that I think we could learn from some of 
our European counterparts is the way they have connected a rail 
system so that people can go from the city to the airport 
efficiently, maximize air travel when possible, and have the 
alternative modes.
    We certainly have had discussions within the Department of 
Transportation. The Secretary has an intermodal council where 
we discuss these things so that whether it is light rail, 
whether it is transit systems, whether it is even port 
adoptability for cargo, all of those get discussed at the DOT 
level. So we are certainly aware of it, and we would be 
certainly willing to work with you and this committee for 
specifics.
    Ms. Johnson of Texas. Thank you very much. Let me say that 
the people present who have lost loved ones, this won't make 
their pain any lighter, but there were no death loss in 
aviation last year. And I am very proud of that. So thank you.
    Mr. Babbitt. Thank you.
    Mr. Petri. Representative Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman. And thank you, Mr. 
Babbitt, for coming. I understand that the FAA has some 
discretion to amend the ATP license requirements on training 
hours and that this is currently under review.
    Sir, do you believe that classroom hours should count 
toward the 1,500-hour requirement? And does the FAA have a 
position on how much time pilots should have in the cockpit of 
an aircraft? And if you don't believe 1,500 hours of cockpit 
time is required, do you believe there is a minimum number of 
hours that should be required?
    Mr. Babbitt. Well, let me tell you that we are, based upon 
some direction from the last Congress and this Subcommittee, we 
are in the process, it is in executive review right now, a 
proposed new rule. And that proposed new rule was based upon 
the formation of an aviation rulemaking committee, which 
included a variety of sources and inputs. They have put 
together several of the points that they wanted to see and 
thought were appropriate.
    We have that, and along with being consistent with the 
direction and legislation that was here, have put what we 
gathered and created as a proposed regulation. That will be put 
out as a new proposed rulemaking shortly. People will be 
available to comment. I think it does incorporate--I saw the 
drafts--it incorporates all those levels that you talked about. 
And it is consistent with the legislation direction that you 
should provide some acknowledgment for two things. Number one, 
1,500 hours I think was the direction of this committee. It 
also said you should acknowledge that if classroom time is 
deemed to be replacement on an equal basis, people will be able 
to comment. Additionally, military service should play a role 
in that. That the people out defending us in combat zones come 
back and have a thousand hours of combat time shouldn't have to 
go get another--they have been defending the country, carrying 
our troops and doing those things; that time should be 
acknowledged, and that level of skill should be acknowledged. 
So those will be all contained within the notice of proposed 
rulemaking.
    Mrs. Schmidt. Thank you so much. Because you know, the 
concerns that have been brought to my attention, especially 
with Continental Flight 3407, really exemplify the fact that 
there is no substitute for training. That is so paramount with 
safety. And I really appreciate your input. Thank you.
    Mr. Babbitt. Well, thank you. And I think you may recall 
that we put forward an advanced notice of proposed rulemaking 
before this ever became an issue. We sought to raise the 
minimum number of hours.
    Mr. Petri. Representative Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. And thank you again, 
Administrator Babbitt, for being here.
    I wanted to ask about the Safety Management Systems 
proposed rulemaking for the part 139 airport areas. And while 
it is critical, I agree, to have these industry-wide safety 
standards, I have specific concerns that the proposed rule does 
not propose to protect safety data that is gathered. This seems 
to stand in conflict to data protections that are in place for 
air traffic and airline safety.
    What steps is the FAA taking to ensure this data is 
protected so that we get to that goal of a strong industry-wide 
safety standard?
    Mr. Babbitt. That is an excellent question. And we have had 
some issues with that in the past, as I think you are aware. 
One of the areas in specifically talking to this, oftentimes we 
put out a regulation for comment, a proposed notice of 
rulemaking, and I would acknowledge that sometimes we are not 
perfect. And sometimes we will get feedback, very positive and 
constructive feedback that says I think you overlooked 
something. And we take those into very serious consideration 
when we write the final rule. And while this is in that 
process, and I am not really at liberty to talk too much about 
it, one of the things we do is go back and see how we could 
mitigate that issue.
    Now, as you are aware, when data comes to the FAA, then it 
is subject to discovery. And so sometimes we would approach you 
with finding ways to help us protect that data and do so with 
legislation, which you have done in the past. And if that is 
the case, there are two ways to solve that problem. One is, 
don't let us be the holder of the data, which is what most of 
our ASAP programs do with the carriers. So when a mechanic 
turns over something, he turns it over to the carrier. It is 
not in our hands. A safety committee looks at it, decides what 
is appropriate action, how it should be handled, what is the 
safety improvement. That is one solution. And we could possibly 
rewrite the guidance to say that, look, it is OK that you have 
the data, we don't need it because it would be discoverable and 
therefore not protected.
    The other alternative is we would come to you and say, you 
know, if we need this data, you need to make certain that the 
people that turn it over have immunity in their reporting. 
Because these voluntary reporting programs are wonderful 
sources of data. The reason that I think we have achieved the 
safety record we have achieved is programs like this spanning 
all of aviation, from mechanics, dispatchers, flight 
attendants, pilots, air traffic controllers. Everyone can put 
their hand up when they see something wrong and voluntarily 
report these things so that we can then take corrective action.
    So it is really important that these people be immune, 
because otherwise they will go back to the way things were in 
the fifties. They will just hide them, and they won't tell us, 
and we will never know.
    Mr. Carnahan. I think it is critical we have a free, 
nonpunitive sharing of this safety data. And I think we look 
forward to really creating a mechanism that works, but also to 
be sure that, as in my prior comments, that airports are not 
being left out of that process as well.
    Mr. Babbitt. Yes, sir.
    Mr. Carnahan. OK. Thank you. I yield back.
    Mr. Petri. Representative Reed.
    Mr. Reed. Thank you, Mr. Chairman.
    Mr. Babbitt, I have a question concerning safety. I come 
from a rural district in western New York adjacent to the 
district where the tragedy happened over a year ago. Can you 
tell me exactly what the FAA is doing to achieve a one-level 
safety standard for regional airline safety, especially in the 
area of pilot experience and qualifications?
    Mr. Babbitt. Well, as you are aware, the standards of part 
121 are equal for all carriers, and so the standard itself is 
uniform. What we found post Colgan, the accident in Buffalo, 
was that we had people performing and performing better than. 
And so then the question became, well, why doesn't everyone 
perform to that?
    We had a series of safety stand-downs around the Nation. 
The Secretary and I went around to 10 different cities, 
interviewed literally thousands of pilots and aircraft 
operators, people from air carriers, including regional and 
major airlines. We requested that the major airlines take every 
one of their co-chair partners and have meetings with them and 
have safety sharing programs.
    The good news is we had wonderful compliance; and I am 
happy to sit here and tell you today that, as a result of those 
meetings, that every carrier, every co-chairing partner today 
has a focal program which is a flat operations quality 
assurance, which means they stream data from their airplanes so 
that it can be read so we can see the overall performance of 
that. We had less than 70 percent compliance prior to these 
meetings. The Aviation Safety Reporting Programs, the ASAPs, 
again every co-chairing regional carrier today has or is in the 
process of being approved one of those programs, which went 
from about 50 percent to where it is today. So these are 
dramatic improvements.
    The carriers themselves, the major carriers, again to their 
credit, have stepped up and taken a very active duty role to 
make certain that they export as mentors of the larger carriers 
their good safety programs. And we ask them to demand the same 
safety standards of the regional carrier that they demand of 
themselves, and the compliance has been excellent.
    One of the things that we say from time to time--this 
safety record we have achieved was not accidental. I hear 
people refer to all the time the miracle on the Hudson. It 
wasn't a miracle. The airplane that landed in the Hudson landed 
in the Hudson safely because it had a superbly trained crew in 
the cabin and in the cockpit, a first-class traffic control. 
Everybody was in coordination that were flying the airplane. It 
was well made and built to certain standards--obviously not 
enough to ingest half a flock of Canadian geese--but, 
nonetheless, that airplane landed safely because we have a 
system that over the years built every safety component that 
was utilized in that 30 seconds when that airplane hit the 
water.
    Mr. Reed. Excellent. So the regional airline carriers are 
bringing their standards up, in your opinion?
    Mr. Babbitt. Yes, sir. Everything we have seen we have 
done.
    In addition to what I mentioned to you, every team had 
white glove or the equivalent of white glove inspections of 
those regional carriers, spot checks on their training 
programs.
    Today, every carrier--to my knowledge, every carrier now 
requests all of the pilot training data. You may recall or may 
not, but one of the areas that we have had to work around was 
when you ask for a pilot's training records from the FAA--in 
other words, their history of taking flight checks from the 
FAA--well, when you turn that information over it is yours, and 
for someone else to request it they have to get your approval. 
We suggested to the carriers if you have an applicant who won't 
release their training records to you, that in itself ought to 
tell you something.
    Mr. Reed. Well, thank you very much. I appreciate that.
    Mr. Babbitt. Yes, sir.
    Mr. Petri. Thank you.
    Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I was particularly interested in your testimony section on 
the airports improvement programs. Because aviation is in a 
global competitive environment, you see all these countries or 
places like Singapore, China where just wonderful state-of-the-
art airports are being built. And then we come to our airports. 
And I know that certainly the Honolulu International Airport, I 
would say probably a mix of a lot of other airports in our 
country where we are falling behind in our AIP program.
    And so you cite the real impact of the extension process 
that we have been using for reauthorization; and I would hope 
that with this Congress that we will be able to come up with a 
reasonable, fair, and forward-looking FAA reauthorization. 
However, short of that, is there something we can do to save 
money in this program? Because you have shown us that we are 
losing money, we are not being very smart about how we are 
proceeding with our AIP program in this environment of wanting 
to make sure that we get the best bang for the buck. So I want 
to ask you, short of a reauthorization, what can we do to 
address the AIP issue that you have laid out for us?
    Mr. Babbitt. Well, I think one of the important points that 
I made in the testimony, to answer the question, was the fact 
that 17 consecutive extensions and continuing resolutions have 
led to a lot of stopping and starting. When equipment has to 
come to a halt and taken off the field, it is expensive to 
bring it back. People will give you a much better bid if I know 
that I get the entire project.
    If something, a runway extension, costs $100 million to 
build you 1,000 feet of runway, as we both know, it is going to 
cost a lot more to build it 100 feet at a time 10 times. And 
that is what we are running into with these constant short 
extensions.
    Ms. Hirono. You certainly made that case. So my question 
is, short of a long-term reauthorization--and I am hopeful that 
we will be able to get to that--is there something we can do to 
address the concern you raise--which I share, by the way.
    Mr. Babbitt. Well, short of reauthorization, I am afraid we 
are going to have to simply have to live with the fact that we 
can't authorize people to do things with money we don't have 
access to, and therein lies the problem.
    We certainly have tried, and under the Stimulus Act we did 
I think a wonderful job. We had close to slightly over $1 
billion, and we got our money out the door. The advantage that 
we had, we had projects in the cue, they had been 
environmentally approved, and we were able to go right to the 
bidders and actually got a lot more leverage out of that. It 
was a tough time in the economy, and people were very 
aggressive with their bidding, which actually let us let more 
contracts. And I think we were very prudent with that money. 
And I think any scrutiny you would like to put us under says 
these were handled very efficiently and the taxpayers got a lot 
of benefit. The airports were better served, the projects were 
completed on time and, in many cases, under budget. So I think 
we do a pretty good job. Just the choke on us is the short-term 
process.
    Ms. Hirono. So we know that we are $1 trillion--at least $1 
trillion behind in infrastructure projects all across our 
country. We are talking about harbors, highways, airports. So 
if we just were to hone in on the aviation part, would you 
support another infrastructure stimulus kind of a bill?
    Mr. Babbitt. Could I give you an answer that if Secretary 
LaHood were sitting here would give you? I could say, yes, I 
would support it, but then they would fire me.
    No, the administration has a budget that they are going to 
put forward, and I think you are going to see as it comes 
forward that there are a variety of infrastructure 
improvements, I think.
    I certainly share this administration's view that 
infrastructure is one of the areas that we absolutely have to 
put resources into; and nothing highlights it more, in my 
opinion, than aviation. We can do all the improvements, we can 
land them with closer spacing, we can do everything in the 
world, but at the end of the day at La Guardia Airport when it 
is a one-runway operation you can still only land them once 
every 54 seconds.
    Ms. Hirono. I think I am on the same page with you.
    Thank you. I yield back.
    Mr. Petri. Mr. Hultgren.
    Mr. Hultgren. Thank you so much, Mr. Chairman; and, 
Administrator Babbitt, thank you so much.
    And I want to thank the FAA and the pilot and the crew and 
the flight folks that all helped all us get here safely this 
week. I felt it today. With a very windy day up there, I was 
thankful for the well-trained pilot and I think a pretty 
difficult airport, maybe, to land in, Reagan Airport there, but 
glad to be here safely and thankful for the hard work that you 
are doing.
    I do recognize, as others, that this coming Saturday is the 
2-year anniversary of the crash of Flight 3407. Independent of 
having passed safety legislation, do you personally feel that 
it is safer today to get on a regional airline than it would 
have been 2 years ago when the crash of 3407 crashed?
    Mr. Babbitt. Well, we certainly have implemented and gotten 
a lot of response. We have implemented a number of safety 
changes. We have put out safety bulletins, advisories and 
gotten a lot of compliance. Those were areas that I think 
needed addressing, and I am appreciative of the compliance that 
we got from those. So if those safety programs themselves 
brought us to a higher level, then the answer is yes.
    We certainly have a lot of people--we have raised the 
awareness. We have got self-reporting now, which helps us to 
understand where shortcomings are happening. Even in the best 
of intentions, procedures move and technology changes and you 
have to find out where things are not working well and get 
people to report it so you can change it. And with those 
changes that we have in the system today, not only in the 
regional world but elsewhere, air traffic control, large 
carriers, a lot of procedures have changed and a constant 
strive to be ever safer.
    Mr. Hultgren. Thank you.
    One other quick question here. There are people here whose 
family members were victims of the crash, obviously are 
passionate about continuing that safety and making sure that we 
do all we can as a Subcommittee and as a Congress, along with 
the FAA, to make air traffic as safe as possible. What do you 
see or what would you to suggest to them today are ways that 
they could be helpful to the FAA? How could they provide input? 
What are things that they could come alongside? Obviously, they 
have shown their commitment by being here today. But what would 
you suggest to them to help us in this process, again, to make 
sure that we continue to have at least another 2 years or many, 
many more years beyond that without a fatality?
    Mr. Babbitt. Sure. Well, I have applauded them publicly and 
privately. I probably--and you can confirm this with them--have 
had the opportunity to meet with them a number of times, and 
what I am extremely appreciative of is the very positive 
attitude. They suffered a horrible tragedy. I have lost crew 
members professionally, people I have known, friends I worked 
with, people I learned to fly with, I have lost them, and I 
understand. But never will I understand like the loss of a 
family member.
    And I have to say that the positive attitude that they have 
carried that they want to do something, we will never do 
anything to bring their loved ones back, but what they will 
enjoy is the legacy of saying the contributions that we made, 
the positive positions that we took, the positive steps and the 
focus that they kept on all of us, has been and will bring 
changes to the aviation system of improvement and safety that 
will be felt forever. So I applaud them for that, and I think 
they have made an enormous impact, and they have done so in a 
positive, constructive fashion.
    Mr. Hultgren. Thank you, and we all thank you as well for 
the work that you have done and ask for your continued input.
    One last thing, and then I will be done.
    I mentioned that my district is just adjacent to O'Hare, 
obviously a very busy airport. But just a question of how 
quickly--shifting gears to the NextGen--how quickly you see 
some of the beneficial impact of the work that is being done 
and what the plan is to have an impact with some of the busiest 
airports, say 35 busiest airports, what your plan is to have 
that so we start seeing that impact.
    Mr. Babbitt. Sure. Well, we have--and I would love to come 
back and perhaps have a meeting with you and your staff or some 
other members to lay out a little more clearly--but we have a 
very expansive plan that talks about that.
    But let me use O'Hare as a specific. We are already seeing 
some benefits there. You have two airports that we consider a 
metroplex up there. We have Midway on the one side and O'Hare 
on the other. Five years ago, that was one massive airspace. 
So, at Midway, we are landing 20 airports an hour of its 
capability of 45. But if O'Hare was saturated, Midway suffered. 
Because those two airports in that airspace is interlinked.
    Today, using RMP technology, we can very accurately 
navigate into Midway with aircraft and never touch O'Hare's 
airspace, so we make them independent of each other.
    Think of a lot of areas. Think of the New York metropolitan 
area. We have to sometimes--unfortunately, GA sometimes 
suffers. We have to literally close Teeterboro so that the 
three airports of Newark, La Guardia, and Kennedy can operate 
with large volumes of traffic. But using, again, RMP procedures 
we can delink those airports so it doesn't matter to someone 
going into Teeterboro what is going on in Newark. And we can do 
that with more accurate--and we are doing that today.
    So we are seeing that type of delinkage in a number of 
airports around the country. That is just one example.
    Some of the optimized profile descents that we are using 
today, dramatic savings in fuel. Alaska Airlines cites 60 
gallons per approach, 60 gallons of kerosene every time they 
land coming down from Alaska, their high-altitude approaches. 
They literally glide all the way in. I mean, those are 
tremendous savings. It is savings in fuel, savings in 
emissions, noise. The noise footprint of people doing optimized 
profile descents, we can show you what goes on in Louisville, 
Kentucky, it is dramatic.
    So as we roll these out it is not just a schematic anymore. 
These are real, live operations. We deploy them as people get 
equipped, and we get the procedures and training in place. And, 
as someone mentioned, the momentum and the pace is there; and 
it will continue to accelerate.
    Mr. Hultgren. Well, thank you very much, Administrator. I 
do look forward to having that time where we can talk more 
directly, and I want to thank the Chairman and yield back.
    Mr. Petri. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Thank you Mr. Administrator. I think you are doing a great 
job. I think you have the right priorities, and you are the 
right man for this job, and I appreciate what you have done.
    I want to talk specifically about what you can do. Correct 
me if I am wrong, but my math indicates that if you roll back 
to 2008 levels from today's operating levels it is a little 
over $1 billion worth of cuts. Is that a rough ballpark figure 
that sounds right?
    Mr. Babbitt. Yes, sir, that is accurate.
    Mr. Capuano. So with a $1 billion left you will clearly not 
be able to do--or less--you clearly will not be able to do what 
you are doing right this very minute, is that fair?
    Mr. Babbitt. Yes, sir, that is correct.
    Mr. Capuano. Have you made the decisions yet as to what 
specific programs would be cut out if you lose $1 billion?
    Mr. Babbitt. No, sir. We certainly would want to step back 
and reprioritize. I mean, we would have to protect the safety 
of the system as we know it today. So then we would look at, 
well, now what is left. So we would have to move some of the 
assets over to protect the safety and integrity of our system 
today. Then we would look back and then prioritize and 
certainly work with constituents to say, well, we are going to 
have to slow this down, that down.
    Mr. Capuano. That is why I appreciate--I mean, first of 
all, your priority is 100 percent correct. But we agree then 
that after safety is taken care of you would still have some 
discretionary funds within which you have to make tough 
decisions.
    I would strongly suggest--Mr. Administrator, you are the 
first person I talked to in the administration since the new 
Congress. I would strongly suggest that you have those cuts 
prepared now. I think it is only fair.
    I represent Logan, as you know. I fly into DCA all the 
time. If one of those airports is getting cut and can't do 
whatever it might be, I think it is only fair that my 
constituents and the constituents who fly into both those 
airports know what is not going to be done. What if it is 
O'Hare? What if it is somebody else? I mean, they should know 
what this means. As opposed to a $1 billion cut, which is a 
nice round number, I can't count that high. I am not sure 
exactly how many zeros there are. But if you tell me that the 
taxiway at Logan is not being done, I have a better idea what 
that means. It means something specific to me and my 
constituents.
    And I would strongly suggest that you and actually the 
entire administration go through this. This is not a new 
number. This 2008 magic candle item has been talked about now 
for months. It is coming. You know it is coming. And I think it 
is only fair to be putting faces and names and specific 
projects to thoughtful--not political but thoughtful decisions 
as to what will be done with $1 billion less. So that when I go 
to the well and defend the FAA and other agencies that I know 
specifically what I am talking about. Otherwise, it is just a 
number.
    Plus, I think it is important for the people who want to 
advocate these cuts to look to their constituents and say, my 
constituents have to take a cut, whatever it might be. We are 
not going to be getting NextGen quite as quickly as we had 
hoped, or whatever it might be.
    So I would strongly suggest to put real names, real items, 
on this list thoughtfully, independently, as you would do if 
these cuts come through, so that we in Congress and so that our 
constituents will know what we are talking about.
    And I would, finally, just to say, as you do, some of that 
money is discretionary, things like which noise abatement plans 
get done next. I would also strongly suggest you remember who 
was with you when the time comes to make those discretionary 
commentary. It has always bothered me, always bothered me--and 
you just said I believe the FAA got close to $2 billion in 
stimulus funds--of that $2 billion I am willing to bet that a 
fair amount of it went discretionarily to people who voted 
against that money. I respect their vote. I do not respect the 
hypocrisy, and I do not respect the administration for not 
noticing that.
    So I would say the same thing here. When the time comes, 
after safety--safety is safety, safety off the table--when it 
comes to nondiscretionary items like noise abatement, they all 
have to be done. Which one goes first? Cut out the ones of the 
people who aren't willing to pay for it and be honest about it, 
not trying to play games. Be honest and open about it.
    There is a cost to an effective FAA. And for those who 
don't want to pay for it, I respect that position, but you 
can't have it both ways.
    So, Mr. Administrator, again, I think you have done a great 
job. I hope that you don't have to go through these cuts 
because I think NextGen and other items you are doing are 
critically important. At the same time, if you do, I hope that 
you help us make the case to the American people of what they 
are actually suffering through these cuts.
    Thank you very much. I yield back.
    Mr. Petri. Thank you.
    Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    I had to smile when you were talking about going across the 
Gulf. As a new ``nugget'' pilot flying an old aircraft with 
steam gauges, following a very weak ADS signal that we had 
finally lost halfway across the pond and notifying ATC we lost 
our navigation, he says, take a look up 2:00 high. Do you see 
contrails? And I said, yes, we do. Follow him. That was our 
navigation.
    So your safety record, obviously, is to be applauded, sir. 
Thank you very much for that.
    But, as you know, this year the reauthorization bill could 
authorize the spending of billions of American taxpayer dollars 
to operate the FAA and related aviation programs. After 
reviewing several Department of Transportation Inspector 
General reports, I am troubled by the FAA's repeated failure to 
provide basic contract oversight in management.
    Today, I specifically would like to focus on the 2008 
contract the FAA awarded to Raytheon for air traffic controller 
trainer and the 2007 contract awarded to ITT to deploy the ADS-
B infrastructure system. In regards to Raytheon contract, in 
the first year, this contract exceeded baseline cost estimates 
by 35 percent, or $28 million. In the second year, the contract 
exceeded planned expenses by 20 percent, or $18 million. During 
the first year of the contract, in 11 separate invoices, 
Raytheon billed the FAA for $45 million, but the FAA did not 
have the controls or the metrics in place to verify that the 
government received the services it was being billed for.
    Perhaps most troubling is the FAA allowed Raytheon to 
determine the performance measures and the data used in 
determining how the contractor could earn award fees. Inspector 
General Gazetti said the proper award fee and incentive fee 
structure alone could have prevented the misuse of 22.6 million 
taxpayer dollars.
    Inspector General Lou Dixon on October 12, 2010--I 
understand that the contract for ITT was not on your watch, but 
the report was. The report of the FAA's contract with ITT 
Inspector General Dixon stated the FAA did not conduct a 
comprehensive financial analysis before deciding that a 
service-based contract would save the government more than the 
traditional method of owning and operating the system. The 
FAA's data showed that if the agency had owned a system through 
the first phase of ADS-B the government could have saved over 
$600 million in the contract's initial phase alone. That is 
$600 million.
    I realize this contract, again, was not awarded under your 
tenure as the FAA administrator. However, the FAA employees 
failed to conduct proper oversight and perform due diligence to 
fix an established pattern of FAA irresponsibility in 
administering Federal contracts. I ask that you provide my 
staff with the names of the presently employed FAA personnel 
that were charged with mismanagement of this oversight in the 
2007 ITT contract and the 2008 Raytheon contract.
    Was Inspector General Dixon wrong in his assessment that 
the government could have saved $600 million by not entering in 
a service-based contract for the initial phase of the ADS-B 
infrastructure?
    Mr. Babbitt. You have touched a number of things there.
    First, I appreciate and should acknowledge it is super to 
have someone with your background on the committee. I know that 
as a professional pilot and a military pilot as well you have 
got a lot of understanding, so I appreciate it and the focus 
that you have.
    One of the things that--and let me sort of get to the 
answer here through a couple of steps. Oftentimes, the IG, 
based on a report, will go out and make a series of statements 
in a report which we are allowed to then respond to. And I find 
I have sat here in this very seat and testified to things that 
have either been repaired or we objected to, but it doesn't 
change what the initial report said. We have said, and, by the 
way, you didn't realize that we did this; and they were, oh, 
golly, you are right. We didn't. That is the second half of the 
page.
    So there is a number of things that you cited in the 
initial reports that we simply did not concur with and have 
supporting evidence of why we didn't, and that is the other 
side of the story. So I want to have the opportunity to share 
with you some of those instances.
    We did have certainly an increase in the training costs, 
but at that same period of time that wasn't a static time in 
the environment. The controller workforce had an enormous 
spike. Like four times what was predicted in normal retirements 
spiked, and we had to undertake one of the most massive 
trainings in that period of time.
    And, yes, it did in fact lead to--these were the people in 
charge of training, and so they had to respond with additional 
and were authorized to.
    You make a good point on some of our oversight capability. 
I welcome the opportunity to spend a little more time and show 
you what we are doing to sort of upgrade ourselves to what 
corporate America would expect of a well-run company in terms 
of project oversight, acquisitions from the beginning. There 
were acquisitions that I have now on my watch that were made 
that I would never enter under the same rules and 
circumstances. We know better today, and we would manage the 
acquisition itself better today.
    With regard to the ITT, that is a subject--we are under 
discussion. But one of the things I think that people should 
appreciate, the difference between--this will be a corporate 
decision. If you and I were sitting on the board of an airline 
and someone said, should we lease the airplane or should we buy 
it? And we can lease it for $300,000 a month or we can buy it, 
if we had the $50 million it would take. Well, we don't have 
the $50 million. Therein lies the ITT contract.
    Yes, it would be operationally less expensive to have 
bought all that equipment, but what wasn't noticed was how many 
billions of dollars it would have cost to acquire the equipment 
to avoid it. In a company, you would make that decision. You 
would decide do you want to go out and borrow that money, put 
it in place, and save the operational costs over time, or do 
you go ahead and lease? I mean, it is the classic argument buy 
versus lease. And so we have to make those decisions, and we 
are having an ongoing discussion with the IG on some of those.
    Mr. Cravaack. Have you done a cost analysis between the 
traditional method versus the fee for service? Have you 
completed it?
    Mr. Babbitt. Well, no, we haven't in the sense that--
appreciate that we don't get to depreciate equipment like the 
private sector does. So there is no depreciation allowance and 
no recapture for us. But we certainly try in our acquisitions 
and certainly going forward will do a better job of letting out 
the differences.
    Mr. Cravaack. I yield back, sir. Thank you.
    Mr. Petri. Thank you.
    Mr. Long.
    Mr. Long. Thank you, Mr. Chairman; and thank you, 
Administrator Babbitt, for being here today.
    There has been a lot of talk today about NextGen, and there 
will be in the future. I am more concerned about today's Gen, 
and I want to go back to I think the Chairman's original 
question to you about the dramatic rise in near midair 
collisions and air traffic controllers' operational errors that 
are up the past year, both nationally and here in the 
Washington, D.C., area. And I believe, if I understood your 
answer, it was because of this new voluntary reporting system.
    However, in the Washington Post there was an article 
December 31, about 5 weeks ago, and the FAA and the controller 
union have admitted that the self-reported errors from this new 
nonpunitive error reporting system are not included in the 
official count. Therefore, I don't see how that could be the 
reason for the rise in the official published errors. Is that a 
correct statement?
    Mr. Babbitt. It is correct in the sense--remember, we are 
changing the overall environment. We are also asking people in 
this partnership for safety to admit things that might not be 
an infraction. So they don't need immunity. They are just 
telling us about them, not under that system.
    We have a much more open culture today than we did 5 years 
ago, 4, or even 2 years ago. And so they don't necessarily use 
ADSAP to report errors. They are free to report anything. They 
will--if they think voluntary reporting might indicate their 
exposure to something and they are looking to have some--not 
immunity but certainly coverage of disclosing this publicly, 
then they will file it under the ADSAP program.
    But we are getting a lot more reports from all corners 
simply because we have a partnership for safety that we have 
engaged in. We also have better electronic observations in 
places where we deploy ADS-B. Remember, ADS-B reports full 
time, all the time, not every 12 seconds in a sweep. So we can 
more accurately track operational areas.
    Mr. Long. So you think that it is more due to the increased 
reporting, wherever it comes from, than actual issues that we 
are having?
    Mr. Babbitt. We actually expected--as each of these comes 
on line, each of these enhanced capabilities, we actually 
expect to get more reports. Maybe not a good analogy but the 
one I use often is the difference between we have an 
intersection and for years we have been writing one or two red 
light tickets a week. Somebody is running the red light. We put 
a traffic camera up, and we got 40 one week. Did 40 people run 
the light that week? No, we just caught all the ones that did.
    And, remember, operational errors do not necessarily mean 
we had a dangerous lapse in safety. What it means is we have an 
established safety margin that we want to be respected.
    An airplane, for example, in the terminal area we like to 
keep them three miles apart. An airplane in front of you slows 
down a little bit, unbeknownst to anyone else. The following 
aircraft moves in to 2.9 miles. That is an operational error. 
All of a sudden the controller realizes he has got a 2.9 mile 
separation instead of three because somebody slowed down and 
didn't tell him. That is an operational error. He has to slow 
the airplane down or give a turn or something. That is an 
operational error. Those are the things we want to understand 
how they happen, how to train so they don't happen again.
    Mr. Long. OK. One other question about--just curious about 
what your reaction is to today's revelations about the 
unprofessional behavior in New York, the air traffic 
controllers there, and do you plan disciplinary action for 
them?
    Mr. Babbitt. Well, first, we are going to get the facts. We 
have sent a team up there. People make allegations from time to 
time, and just like everybody in the country we want to look 
into this and get the actual facts of what is going on up 
there.
    That is a very complex series of airspace. We move traffic 
through it in a day than some countries move. So it is a very 
intense traffic area.
    I read some of the allegations. But the bottom line is we 
have got a team up there, and the controllers have been very 
open. They will work with us as well, and we will get to the 
bottom of this. And if in fact some of those allegations are 
correct, obviously, we will take disciplinary action.
    Mr. Long. OK. And, again, I thank you for being here.
    I got routed through Dallas yesterday, DFW, after the Super 
Bowl. Normally, I think on a Monday they have 19,000 
passengers. At National they had 50 and moved very fluidly.
    So I thank you for all your work, and I yield back.
    Mr. Babbitt. Thank you, sir.
    Mr. Petri. Thank you.
    Representative Meehan.
    Mr. Meehan. Thank you, Mr. Chairman; and thank you, Mr. 
Babbitt, for your appearance here before us today.
    I have some specific questions, and I am glad that you 
opened the door to the issue of New York being a very sort of 
intense airspace region. I am just below that, representing a 
district that includes the Philadelphia airport, my county, and 
you may be familiar with some of the issues with regard to 
that.
    But one of the--I just finished a GAO study that looked at 
congested areas, and their conclusion was that regional airport 
planning could help address congestion if the plans were 
integrated with FAA and airport decision making, realizing not 
just a class B like Philadelphia, but there are other--Lehigh 
Valley, Atlantic City--other airports that may be able to 
handle overflow from the main hub. What is your opinion with 
respect to the importance of the essential nature of regional 
planning as we deal with the issue of congestion?
    Mr. Babbitt. Well, I think there is certainly a place for 
regional planning, especially in these metropolitan areas.
    One of the things that we certainly take into 
consideration, reliever airports that are near major airports, 
that they can help unburden some of the traffic that is going 
into a metropolitan airport. That is a good thing.
    The other side of that coin, of course, is the commercial 
reality of the carriers operating in those big airports and the 
connectivity of their traffic. Someone who wants to go through, 
for example, Newark, land in Newark and then go somewhere else 
isn't going to be well served by going to Atlantic City or an 
airport not too close by. So the connectivity plays into that.
    But to the extent these airports add to the overall 
improvement of the national air space system we certainly 
consider that, and it is not unique that you have regional 
planning authorities that do take into consideration, and we 
certainly consider them when we talk about adding airport 
improvement funds.
    Mr. Meehan. Well, in reviewing this study, I was concerned 
about some of the language. If I can, it was that the airport 
officials in Philadelphia International stated that the airport 
does its own planning without input from regional planners. 
This is the language of the GAO study. And another one. Airport 
officials in Philadelphia stated that regional airport planning 
has little influence on the decisions made by the City of 
Philadelphia or Philadelphia International Airport.
    And then I see a concluding paragraph, a major hindrance is 
the differing interests of airports in the region. Their 
language, airport officials in Philadelphia told us they do not 
want to support Federal efforts, including regional airport 
planning, that could--because the City of Philadelphia which 
owns Philadelphia International does not want to lose revenue 
generated at its airports to other airports. Is it a revenue 
question or is it an efficiency question?
    Mr. Babbitt. Well, the decision that is made by the Federal 
Government whether or not to support a request by an airport 
authority, an airport sponsor--and remember that most of the 
airports in this country are owned by the cities, the counties, 
in some cases, the State, and they make their own independent 
decisions. They would then request improvements. They would--
using forecasts. And, of course, we do the same thing. If those 
forecasts indicate to us that we would improve the overall 
transportation flow, we grant those requests. But they are on a 
very solid foundation of a very thoughtful overall contribution 
to the national airspace system.
    But what an individual airport does, whether it wants to 
build a hangar on the north side of the field or the south 
side, a new terminal wing and so forth, those are airport local 
decisions and not subject to our approval.
    Mr. Meehan. I concur with the idea of the airport local 
decisions, but I am concerned about one issue that respects the 
Philadelphia situation. Because they do have great autonomy, 
and they have proposed extending an airstrip to accommodate 
congestion. Are you aware that in the context of that 78 homes 
are going to be taken by purported eminent domain?
    Mr. Babbitt. I am aware of that, yes, sir.
    Mr. Meehan. Well, sir, the power of eminent domain does not 
come from them locally. It is your power of eminent domain that 
they are stepping into. So they are making their own 
independent decisions. They are not using any kind of regional 
association because they choose not to--by their words, not 
ours--because of revenue streams, and yet your power of eminent 
domain is what they are using to take these homes. Is that fair 
to those homeowners that they are not looking at what the GAO 
suggests may well be an alternative to dealing with congestion?
    Mr. Babbitt. Well, I think the gap in what you and I are 
discussing is captured in our ability to force them to join in 
any type of regional planning authority. We simply don't have 
that authority, nor could we compel them or restrict them from 
that.
    We went through a record of decision process. They made 
their plan, which did in fact include capturing some land. And 
in the interest of expanding the overall flow and contribution 
to the system it is a reasonable plan. It met all of our 
criteria, federally established criteria, and a decision was 
based on that.
    Mr. Meehan. It only looked at two things. It only looked at 
two separate entrances and the status quo. It did not consider 
the opportunity to perhaps lay off flights into other airports, 
including its own northeast Philadelphia airport in a city less 
than 10 miles away from Philadelphia International.
    Mr. Babbitt. Well, again, the amount of--one of the things 
that you would look at in that case if you were Philadelphia is 
how much originating and departing traffic is yours and yours 
uniquely, as opposed to connecting traffic. And if an airport 
has a high volume of connecting traffic realize this is a 
commercial discussion outside of the authority of the FAA.
    Mr. Meehan. But, Mr. Babbitt, they are using your authority 
to take those properties. And--I am sorry--may I just ask one 
quick question?
    Mr. Petri. Sure.
    Mr. Meehan. One last issue is, in addition to this, there 
has been noise abatement that has been used for some of those 
properties. I am sure you may be aware there are 78 properties 
that are potentially affected. Yet at the same time the airport 
and the FAA have done noise abatement on some 27 of those 
properties which are slated to be taken at a cost of--I 
understand it is close to $1.2 million. Who is making that 
decision?
    Mr. Babbitt. Well, that would be part of the record of 
decision, as I understand the process. That the overall airport 
plan goes through a very high-intensity, robust review which 
includes environmental protection. Certainly the noise levels 
forecast, all of those come into play. In some cases, you can 
mitigate the noise levels. When traffic picks up in an airport, 
we have some criteria. The EPA through the NEPA has a baseline 
criteria, and when that is exceeded we have an obligation and 
do often go out and provide mitigation by soundproofing homes, 
giving them money because the situation has changed.
    But in this case the record of decision obviously was a 
little stronger than that and said if you are going to make 
this extension we need this land and therefore you take this 
next step.
    Mr. Meehan. But they are mitigating homes that they are 
going to take.
    Look, may I just ask if your staff can answer these 
questions?
    Mr. Petri. I am afraid--you can ask someone next to you to 
yield time for you to be recognized.
    Mr. Meehan. Mr. Chairman, I will submit a question to Mr. 
Babbitt.
    Mr. Babbitt. Congressman, we would be more than happy to 
come over with a team and meet with you and your staff. I would 
be more than happy to do that and discuss that at length, yes, 
sir.
    Mr. Meehan. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Lankford.
    Mr. Lankford. Thank you. Thank you, Mr. Chairman.
    And thanks for coming over and spending time with us today.
    Let me run through just a couple quick questions. Is there 
a ballpark figure that you are dealing with at this point for 
NextGeneration, what it has cost to date to implement and what 
you anticipate it will cost to complete the process? And I know 
there are multiple elements. NextGen is this large broad term, 
and there are a lot of other random pieces. Give us a round 
figure what it has cost to date and what you think it will cost 
to complete.
    Mr. Babbitt. Well, there is a number. That is a difficult 
question to answer. And I could probably give you a more 
accurate and better answer by pulling all these figures 
together, but it is in the multiple billions.
    Mr. Lankford. Right. It is a figure that I have been 
looking for and have not been able to find it. That is why I am 
asking, to say if there is a way to be able to pull those 
figures together, to just give us a number, to say here is what 
it has cost to date, here is what it will cost to complete, 
that would be very helpful. Because the numbers seem to be all 
over the board.
    Mr. Babbitt. Sure. And then, too, what complicates it, 
Congressman Lankford, is the fact that some of these components 
are NextGen itself. In other words, if we define NextGen as the 
ability to communicate with the aircraft, navigate the 
aircraft, surveil the aircraft, and the technology that 
surrounds that, does it also include training for the, for 
example, the controllers? How about the digital communication? 
How about the facilities that we may have to build? How about a 
need to modernization and so forth?
    So all of these things support NextGen. We can break that 
down for you and say, this is direct NextGen, this is 
supportive of NextGen, this will be desirable to accelerate 
NextGen.
    Mr. Lankford. That would be terrific.
    Tell me about the interaction between us and Europe. We 
have got the two most frequently used airspaces in the world, 
and I know they are implementing their own process. How is that 
communication going relating to their process which is 
different than our process?
    Mr. Babbitt. Right. They are looking to have their own 
NextGen system, SESI, which is the Single European Skies 
Initiative. They are far more in the drawing board stages. We 
actually use it today; they don't. It is simply a discussion 
item with them. But we are in very close communication with 
them.
    For that matter, we are working with all of our 
international partners. It would be foolish for us to have a 
system that was not interoperable. We want an airplane to go 
from anywhere in the world owned by anyone in the world to any 
other place in the world and use the technology to the fullest 
extent.
    Mr. Lankford. So you feel confident at this point once we 
are implementing NextGen it is going to be interoperable with 
whatever is being constructed in Europe and the relationship is 
already there?
    Mr. Babbitt. Yes.
    Mr. Lankford. What I don't want is our commercial aircraft 
to have to have two different systems to be able to cross.
    Mr. Babbitt. No. And nor do they. We have had good dialogue 
with them.
    I would say we are very, very far ahead of them. I mean, we 
actually have, as I noted, a number of cities, areas. The 
whole--the area on the east coast of Florida in the Melbourne 
area completely equipped. All the training aircraft use NextGen 
today. It is a wonderful system. We have it deployed a lot of 
places.
    Mr. Lankford. Just relationship again, not to get off the 
European conversation here. I am hearing lots of conversation 
about a taxation, a cap-and-trade-type implementation that is 
happening on a commercial airline basis and an increased tax 
possibly coming to fly into European space. Are you aware of 
that and can you bring me up to speed with what is happening 
with that?
    Mr. Babbitt. Yes, sir. We like to address those as a 
country. We have used ICAO as the vehicle to address these. We 
don't think it is appropriate for any individual country to 
stake out on their own so we have our standards and anyone 
coming in here would have to live by our standards. So we have 
very much been active participants in ICAO. We are very 
supportive.
    Certainly as the FAA, this administration and this country, 
in coming up with a uniform worldwide trade or--I am sorry--
system that would acknowledge what we want to do for the 
environment and work on something that, if you comply, you will 
be invited to participate and fly into any airspace anywhere in 
the world. We think that is the way to go.
    Mr. Lankford. Terrific.
    A couple more quick questions on it. One is dealing with 
the alternative fuels. There is, again, a lot of chatter about 
moving to alternative fuels. There is some research projects 
that have been put into previous versions that obviously did 
not pass through at this point. What are alternative fuels that 
you would look at and say in this authorization I would like to 
see this in there, or are there any?
    Mr. Babbitt. Well, we have--you should be aware of a couple 
of initiatives that we have. We have a CLEEN program, which is 
Continuous Low Energy, Emissions, and Noise, which we have a 
great partnership with people in the community. We have five 
different engine manufacturers involved.
    The airframe manufacturers are working together with other 
parts of the industry to develop technologies that burn less 
fuel. We are ahead of our goal of reducing fuel consumption 2 
percent annually. We are ahead of that thanks to the 
partnership we have.
    Alternative fuels fall into that same area. We have got a 
couple of kinds of considerations. One is the quest for 
renewable fuels. So biofuels, areas like that.
    We also have the problem of existing fuels that are going 
to be phased out. The EPA wants to eliminate lead from all 
fuels. We have a 100 low lead octane that we burn in a number 
of our general aviation aircraft.
    I just recently signed an aviation rulemaking committee to 
put an arc together, this committee, to find a suitable drop in 
replaceable fuel as quickly as possible so that we can move to 
this fuel. The issue is that we don't want to have lead 
additives outlawed before we have the alternative fuel to 
replace it with, and I am pretty comfortable that working with 
the industry and our constituents we will find it.
    We have a number of fuels today. One of the problems, 
without getting too technical, lead in and of itself is a 
lubricant and so you can replace it with nickle and get the 
same octane. The trouble is the engine life is cut in half, and 
nobody wants that.
    Also, we need these fuels to be drop-in. You need to be 
able to put it in the same tank, pump it through the same hose, 
through the same carburetors, and not have some unintended 
consequence come from corrosion or leakage or things like that.
    Mr. Lankford. Terrific. Thank you.
    Could I just ask one thing? If I could get a formula from 
the FAA for how they make decisions on consolidation. If that 
is in print somewhere, just to be able to go through and review 
some sort of metric to say this is how we decide when we 
consolidate TRACON facilities or whatever it may be, this is 
our plan on how we make that strategy.
    Mr. Babbitt. Yes, sir. We have a pretty thoughtful analysis 
that we use, and we look at the geography. If we find an area 
where it seems--
    Think about it in simple terms. If we had within, say, a 
200-mile range, we had four or five TRACONs, each one of those 
has back-up facilities, back-up generators, back-up IT, all of 
that, could we consolidate that efficiently into one area?
    One of the things that I am real pleased that we have been 
able to do recently is to get with our colleagues, whether it 
is the members of PAS or NATCA, and sit down and say, look, 
this is the business case. We want to sit down. Does this make 
sense to you? And I am pleased to say that we have enjoyed 
pretty good success. We recently consolidated eight different 
facilities to achieve savings and did it with a consensual 
agreement, so it is working.
    Mr. Lankford. Thank you.
    My time is expired. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman.
    Mr. Babbitt, thank you very much for coming today. I was 
here--my plane came in a little later, and so I wasn't able to 
be here for the whole time.
    Mr. Babbitt. I hope it wasn't our fault.
    Mr. Southerland. No. Actually, it was on time. It was just 
I couldn't get one out of Panama City earlier.
    I was reading through your comments that you had shared 
earlier and some very impressive numbers. I want to commend 
you. It talks about approximately 750 million people through 
the system on an annual basis, and 50,000 flights are operated 
on any given day. That is an enormous success, and I commend 
you and your staff for working to create that record.
    I want to ask--I was born and raised in a home where mom 
always taught us that an ounce of prevention is better than a 
pound of cure, and that saying sticks with me the older I get. 
I want to ask some questions regarding--as far as your 
controllers, and really in light of what I have seen and just 
the general public. So the questions that I ask are questions--
just my own curiosity. I do not come from an aviation 
background, so I just want to ask some questions.
    How many air traffic controllers does the FAA employ 
throughout your entire system?
    Mr. Babbitt. Well, right now, we employ, in round numbers, 
about 15,500 air traffic controllers.
    Mr. Southerland. So, obviously, in order to do the numbers 
that you stated in your comments, I am sure the majority of 
them are blowing and going and doing a great job.
    In light of what we saw in the papers--and, again, you made 
reference to sending a team up to New York, and I commend you. 
You are going to do your due diligence and gather all the 
facts, as anyone in your position would do. I am just wondering 
what kind of scenario as far as the disciplinary action if your 
findings are that what we read about is true, that people were 
away from their stations, that they had responsibilities, one 
person was carrying on the workload of three. What do you--I 
mean, under what condition is there a zero tolerance? I mean, 
we have got to be ahead of the curve to make sure that that 
wonderful success ratio continues going forward. I mean, is 
there a zero tolerance because their position is so critical to 
the safety record?
    Mr. Babbitt. Yes, sir. We have taken some pretty severe 
actions in cases where the people have not performed to what 
they should have been doing. And the relationship we enjoy 
today with NATCA, more often than not they agree. They are no 
more tolerant of unprofessional behavior than we are. They have 
their own professional standards, and that is an improving area 
for them. I applaud them for it.
    Professional airline pilots have a very similar type 
program. We are seeing that coming out in mechanics where you 
discipline with your peers. We can't watch everything. They 
can.
    Mr. Southerland. You know, everyone seems to be talking 
about the need to get a dollar out of a dime. I mean, 
obviously, the fiscal mess that we are in as a country it is 
going to take everyone rowing and everyone doing their part. As 
far as going forward, are air traffic controllers--are they 
subject to the President's pay freeze that is in place for all 
Federal employees?
    Mr. Babbitt. Well, they are subject in the sense that if we 
had an open agreement with them, yes, we would have to live by 
it. What the controllers have in place was a contract that was 
negotiated several years ago, and by obligation by both 
contract law and statutory requirement we are obliged to live 
up to that agreement.
    Mr. Southerland. Are there any other employees in your 
agency that are under any current labor contracts that the pay 
freeze stated by the President would not apply to?
    Mr. Babbitt. Well, we entered a new agreement with another 
section, the noncontroller section of NATCA. But because the 
pay freeze was in effect we limited them to no more than 
anybody under the pay freeze would get, and they have agreed to 
that. That is the difference. This was negotiated in an earlier 
time prior to and therefore is immune from.
    Interestingly, the actual--without getting into details, 
what was proposed for them in terms of a series of step raises 
was somewhere in the ballpark of what government employees 
would be getting anyway. So it wasn't like it was dramatically 
different than what a standard person under the GS scale would 
have gotten.
    Mr. Southerland. And, again, I know it is going take 
everyone to row to get us out of this mess we are in, OK, 
because we are in a mess, and financially. So I guess my 
question--and not to pick on them, or I am just saying going 
forward I would say that someone in your position you want to 
make sure that it is fair and equitable and that everyone is 
doing their part. So that is really the angle I was coming at.
    Mr. Babbitt. Sure. And I appreciate it. I mean, we have 
billions of dollars of contracts with contractors, too. I would 
love to go back to them and say, have you heard about the 
President's pay freeze? But I don't think they would be any 
more receptive than the rest of the world.
    Mr. Southerland. Mr. Chairman, I yield the balance of my 
time. Thank you, sir.
    Mr. Petri. Thank you.
    Thank you all. It has been a good hearing, and we 
appreciate the participation of all of the members of the 
Subcommittee.
    Just one quick question. I would be remiss basically if I 
didn't ask if you could comment briefly on any of the 
opportunities and challenges for the general aviation community 
of the NextGen deployment.
    Mr. Babbitt. Sure. Well, I think that is one of the areas 
that I think we have to do a better job of explaining the 
advantages.
    But one of the things that we really look forward to is the 
opportunity for people in general aviation to absorb 
information on board the aircraft that would otherwise never be 
available to them. We broadcast weather information that would 
give them a depiction of whether it is better than you would 
get with airborne weather radar, textural information that they 
simply could not achieve.
    But the most important, we have tens of--not tens of but 
thousands of airports around the country where general aviation 
operations go in and out every day. Those airports don't have 
the volume of traffic that could justify putting in an 
instrument landing system, a VAR approach or anything like 
that. We would have to maintain the ground equipment to do it. 
But with NextGen all we need to do is design the approach once, 
there is nothing to maintain, and we can give literally 
thousands of airports guidance, both vertical and horizontal 
guidance, to make safer approaches for a very, very minimum 
cost.
    So we are talking about the smallest airports. We are 
talking about airports that are just below the size that could 
command that. Where someone with a business jet who won't keep 
their airplane there or might have to go there to deliver parts 
or something now has an approach to that airport. They can 
provide services to that town that they otherwise couldn't, and 
they will get that with NextGen.
    The ability to--the helicopter example is a great one. They 
can fly and see the other helicopters out over the Gulf. They 
had no ability to do that before. And so they can sequence 
themselves visually with digital help. So all of these things 
are great aids for general aviation.
    A good example is what goes on down at Embry-Riddle. All of 
those aircraft safety training areas are very complicated for 
us in general aviation, where you have students literally 
sometimes 30 and 40 aircraft into a training area and they are 
maintaining separation visually and they are doing maneuvers. 
That is very complicated. With NextGen they have on board, they 
can see where the other airplanes are. A tremendous improvement 
in safety for them.
    And that is just the tip of the iceberg. There is a lot of 
safety enhancements that come from general aviation, and I 
think as time goes on they are seeing more and more the 
benefits. Our obligation is to explain it to them better, and I 
think once they appreciate all the benefits they are going to 
appreciate the acceleration a lot more.
    Mr. Petri. Well, again, thank you very much. I will be 
holding another hearing tomorrow.
    This hearing is adjourned.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]
    [Prepared statements supplied for the record follow:]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
